<html>
<title> - CHINA'S FAR WEST: CONDITIONS IN XINJIANG ONE YEAR AFTER DEMONSTRATIONS AND RIOTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
CHINA'S FAR WEST: CONDITIONS IN XINJIANG ONE YEAR AFTER DEMONSTRATIONS 
                               AND RIOTS 

=======================================================================

                               ROUNDTABLE

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 19, 2010

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

57-904 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening statement of Charlotte Oldham-Moore, Staff Director, 
  Congressional-Executive Commission on China....................     1
Kan, Shirley A., Specialist in Asian Security Affairs, Foreign 
  Affairs, Defense, and Trade Division, Congressional Research 
  Service........................................................     2
Toops, Stanley W., Associate Professor, Department of Geography 
  and International Studies Program, Miami University............     5
Richardson, Sophie, Asia Advocacy Director, Human Rights Watch...     8

                                APPENDIX
                           Prepared Statement

Toops, Stanley W.................................................    28

                       Submissions for the Record

Prepared Statement of Kathleen E. McLaughlin, China Correspondent 
  for BNA Inc., Freelance Journalist.............................    35
Statement of the Chairman and Cochairman: Xinjiang--One Year 
  After Demonstrations and Rioting...............................    36


CHINA'S FAR WEST: CONDITIONS IN XINJIANG ONE YEAR AFTER DEMONSTRATIONS 
                               AND RIOTS

                         MONDAY, JULY 19, 2010

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The roundtable was convened, pursuant to notice, at 2:03 
p.m., in room 628, Dirksen Senate Office Building, Charlotte 
Oldham-Moore, Staff Director, presiding.
    Also present: Kara Abramson, Advocacy Director.

 OPENING STATEMENT OF CHARLOTTE OLDHAM-MOORE, STAFF DIRECTOR, 
          CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

    Ms. Oldham-Moore. Good afternoon. I'm Charlotte Oldham-
Moore. I'm Staff Director at the Congressional-Executive 
Commission on China. You are here today at the fifth roundtable 
of the year for the Congressional-Executive Commission on China 
[CECC].
    We have one panelist, Ms. Shirley Kan, on her way to the 
hearing room. Unfortunately, we have another panelist who got 
snagged in Minneapolis in a flight slowdown and had to return 
home. So, unfortunately, Ms. McLaughlin will not be joining us. 
But we have present here today Dr. Stanley Toops and Dr. Sophie 
Richardson.
    At this CECC roundtable panelists will examine conditions 
in the far western region of Xinjiang one year after 
demonstrations and rioting occurred there. Events in July 2009 
exposed long-standing tensions in the region and Uyghurs' 
grievances toward government policies that threatened their 
basic rights. Authorities pledged, in 2010, to improve economic 
conditions in Xinjiang and appointed a new Party secretary for 
the region.
    The questions that will be examined at today's roundtable 
are: How will these new developments shape Xinjiang's future? 
Is the government effectively addressing Uyghur grievances? How 
have government controls over the free flow of information 
affected our understanding of events in the region?
    Before I turn to the panelists, I want to make a couple of 
brief announcements. First, we have a wonderful group of people 
in our audience today, but I certainly want to give particular 
attention to Ms. Rebiya Kadeer. Many of you know Ms. Rebiya 
Kadeer. She is head of the Uyghur American Association, and 
also head of the World Uyghur Congress. She is joined by many 
of her associates; some of you may have met them.
    Ms. Kan? Great. So glad you could make it. I am also joined 
by Kara Abramson, our Senior Analyst on Uyghur issues, as well 
as religion and minority concerns, at the Commission. Many of 
you know Ms. Abramson's work. She does outstanding analytic 
pieces for the Commission, and she is with us here today.
    I am going to turn to introduce our panel. Then after the 
panelists give their statements, we will turn to the audience, 
you, for questioning of the panelists.
    Our panel of witnesses, as I mentioned, will examine the 
current conditions in Xinjiang Uyghur Autonomous Region one 
year after demonstrations and rioting took place in the capital 
city of Urumqi.
    To help us understand these developments, we have three 
distinguished witnesses who will speak today. First, Ms. 
Shirley Kan, a Specialist in Asian Security, Foreign Affairs, 
Defense, and Trade Division at the Congressional Research 
Service. For those of you who cover Asia for the Congress, you 
know Shirley's work very well. She is really just an 
outstanding resource for Members of Congress and their staffs.
    Next, we have Dr. Stanley Toops. He is Associate Professor 
in the Department of Geography and International Studies 
Program at Miami University. Dr. Toops will address demographic 
and economic developments in Xinjiang. Finally, Dr. Sophie 
Richardson will speak. She is the Asia Advocacy Director at 
Human Rights Watch. Dr. Richardson will discuss disappearances 
in the aftermath of the July demonstrations and riots, which, 
as all of you know, took the lives of many Han Chinese, as well 
as Uyghur citizens of China, a very tragic event for the 
country. She will discuss other recent human rights events in 
the region as well.
    So I am going to turn it over to you, Ms. Kan. Thank you.

   STATEMENT OF SHIRLEY A. KAN, SPECIALIST IN ASIAN SECURITY 
         AFFAIRS, FOREIGN AFFAIRS, DEFENSE, AND TRADE 
            DIVISION, CONGRESSIONAL RESEARCH SERVICE

    Ms. Kan. Thank you. I'm going to briefly go over the 
political and security implications of the People's Republic of 
China's [PRC] response in the past year to the unrest in 
Xinjiang in July 2009.
    The Communist Party of China [CPC] changed leaders in 
Xinjiang, convened the first Xinjiang Work Conference, and 
expanded security forces. These developments have added 
complexity because the PRC regime tends to target Uyghurs with 
a tinge of ``terrorism.'' What are the implications for the 
PRC's approach to internal security and for the United States?
    First, the CPC changed leadership, both civilian and 
military leaders in Xinjiang. In September 2009, the CPC 
replaced the Secretary of the Communist Party of Urumqi. Then 
the Party Secretary of Xinjiang since 1995 was expected to be 
replaced also, but the top rulers apparently waited because 
Wang Lequan is also a Politburo member and they could not 
appear to bow to dissent.
    In April, General Secretary Hu Jintao convened a Politburo 
meeting on Xinjiang and removed Wang Lequan, putting him under 
Politburo Standing Committee member Zhou Yongkang as his deputy 
in the Politics and Law Commission.
    Wang appears to be the only member of the Politburo to be 
demoted. Assigned as the new Xinjiang Party Secretary was Zhang 
Chunxian, formerly the Party Secretary of Hunan Province, where 
he reportedly paid attention to public opinion. Before that, 
Zhang was a professional bureaucrat as the Minister of 
Transportation, but he is still an outsider to Xinjiang and a 
Han.
    Zhang continued the call on the military forces to crack 
down on the ``Three Evil Forces,'' which is a PRC term that 
conflates religion, ethnicity, and fighting into one threat. In 
June, the leadership replaced the Political Commissars of the 
Production and Construction Corps and the People's Liberation 
Army's [PLA] Xinjiang Military District.
    Second, the CPC leaders convened a Xinjiang Work 
Conference. Like the Tibet Work Conferences, with the fifth one 
held in January, there was the first Xinjiang Work Conference 
in May. All nine members of the Politburo Standing Committee 
attended both the Tibet Work Conference in January and the 
Xinjiang Work Conference in May. While it appears that General 
Secretary Hu has the lead on the Tibet Work Conference and 
fourth-ranked Jia Qinglin has the lead on the Taiwan Work 
Conference, ninth-ranked Zhou Yongkang has taken the lead on 
Xinjiang. With Zhou as the Chairman of the Politics and Law 
Commission, the indication is that security has the priority in 
Xinjiang rather than economic development.
    Ironically, this fact was brought home on the first 
anniversary of last July's unrest. Even an effort to showcase a 
supposed return to business as usual at the famous 
international bazaar in Urumqi saw Uyghur vendors selling 
scarves and such alongside armed police with guns, batons, and 
shields. I am sure that is just great for business and tourism.
    Third, the CPC leaders expanded security. They transferred 
5,000 elite special police from around China from last July 
until this April, and recruited 5,000 special police from 
within Xinjiang, starting in February. In March, the 
paramilitary People's Armed Police [PAP] added a new elite, 
rapid-reaction unit, as what they themselves call a ``fist'' in 
Urumqi.
    PAP units have trained in the use of helicopters for armed 
assaults on people on the ground and trained special operation 
units for armed raids, even into residences. The PAP set up 
rapid-reaction units in other cities as well.
    In the military, the PLA, there has been at least one army 
aviation unit with helicopters that appears to have the mission 
of rapid reaction and long-distance deployment. They also have 
increased spending on security in 2010. Just this year, 
security spending increased by 88 percent, to $423 million.
    The police have been installing 60,000 security cameras in 
the city of Urumqi alone, and that is to be completed by the 
end of this year. They take pictures of all drivers and 
passengers in every vehicle near that famous bazaar I mentioned 
earlier.
    In conclusion, what are some implications for internal 
security? The PRC's new approach appears to be comprehensive, 
involving economic, security, military, religious, legal, 
energy, diplomatic, propaganda, transportation, and local 
policies--that is, the governments of other localities in 
China.
    The impact on Uyghurs and Hans appears to be mixed. There 
is now top-level attention from the top leadership which would 
encourage economic development, but that raises the political 
cost of any unrest and the incentive to take harsh, or even 
preemptive, measures to crack down in the name of 
``stability.''
    On the plus side, there has been recognition that the root 
of the unrest last July was internal problems, not external 
forces as the officials had charged. Second, there was the 
implicit admission that the local leaders were part of the 
problem, even a Politburo member.
    Externally, the PRC regime has allowed foreign reporters, 
both last July as well as for this first anniversary. The PRC 
also allowed for the first time some foreign monitoring, 
including the first visit to Xinjiang by the Organization of 
the Islamic Conference [OIC] in June. OIC's Secretary General 
visited Xinjiang, including Kashgar, and called for attention 
not only to the economy, but also cultural concerns.
    Improved crisis control could provide more accurate and 
objective information for restraint in the use of force. There 
could be more economic benefits, including use of the region's 
own energy resources. There could be greater respect for the 
culture and religion of Uyghurs. The Work Conference I 
mentioned could be regularized to continue to assess problems 
as well as progress.
    On the negative side, if there is another protest, the 
beefed-up security forces are likely again to overreact to 
unrest. There is likely greater use of intelligence, including 
using informants in their own communities, and monitoring of 
people's everyday lives: through emails, phone calls, cameras.
    Even with the implicit admission of an internal and 
economic problem, there is no change to the rhetorical use of 
the tinge of ``terrorism'' through attacks on the so-called 
``Three Evil Forces.'' There is no indication that there are 
reversals in the flows of Uyghurs, particularly women, out of 
Xinjiang to work where they face discrimination, and of greater 
numbers of Hans into Xinjiang.
    As can be seen in the ethnic or cultural grievances around 
the world, including in the United States, economic 
determinants alone are not sufficient to address perceived 
wrongs. Moreover, the PRC's economic policies and increased 
transportation could actually result in even greater numbers of 
Hans going to Xinjiang. Based on the PRC's policy to force 
Uyghurs to learn the Mandarin language, there is implicit 
admission that economic benefits are biased toward those who 
use Mandarin, especially the Hans. There is also the implicit 
dismissal of the Uyghur language, but actually their Turkic-
based language historically has helped with trade ties to 
central Asia and Europe.
    In short, there does not appear to be a fundamental change 
in the PRC's approach of the Hans controlling the Uyghurs: 
assimilation, not autonomy as promised even in the name of the 
so-called ``Xinjiang Autonomous Region.''
    What are some implications for the United States? 
Consideration of whether to work with the PLA in Xinjiang in 
support of U.S. military operations in central Asia requires a 
great deal of caution. There are acute tensions, crackdowns are 
likely, and communication is even more tightly controlled.
    Second, the PRC's claim that the Uyghur-linked terrorism is 
the greatest threat to China is not credible. There could be a 
different problem for Americans and other foreigners, 
especially businesses, of greater discontent and lawlessness 
throughout China.
    Let us look at just reported bombs on buses in 2010 so far. 
In February, there was an explosion on a bus in Yunnan Province 
that killed the bomber himself and injured 11. Earlier this 
month, an explosion on a bus in Jiangsu Province killed 24 
people and injured 19. Then, over months, attackers terrorized 
innocent children in schools in at least five incidents. The 
PRC did not call the suspects ``terrorists'' or ``suicide 
bombers.''
    As President Obama said at the U.S.-PRC Strategic and 
Economic Dialogue last July, ``Religion and culture of all 
peoples must be respected and protected'' and ``all people 
should be free to speak their minds.'' He said, ``That includes 
ethnic and religious minorities in China . . . ''
    Thank you.
    Ms. Oldham-Moore. Thank you, Ms. Kan.
    Now we have Dr. Stanley Toops, please.

STATEMENT OF STANLEY W. TOOPS, ASSOCIATE PROFESSOR, DEPARTMENT 
     OF GEOGRAPHY AND INTERNATIONAL STUDIES PROGRAM, MIAMI 
                           UNIVERSITY

    Mr. Toops. Thank you very much.
    I am a geographer, an academic, and I study demography and 
development. I've been going to Xinjiang on and off for the 
past 25 years, as I found it a very interesting place to look 
at for demography and development, as that is what the bulk of 
my research has been upon.
    I will talk about two things. One is essentially looking at 
the development issues as transpired or the policies with the 
Xinjiang Work Forum--or the Xinjiang Work Conference, I've seen 
it both ways--and then the other part is to look at the 
demographic components of Xinjiang and think a little bit about 
the possible impacts of the policies derived in the Xinjiang 
Work Conference.
    Xinjiang is, of course, the largest territorial unit within 
China, about one-sixth of China's total area, so it's actually 
quite large. There's a population of 21 million, a large 
population, but compared to, say, Sichuan, not so much.
    When you look at it, also, you realize that while the 
population in total is kind of sparsely populated for China, 
given the climate and the physiography within Xinjiang, 
actually 20 million is a large population; there is just not 
enough water for everybody eventually.
    Xinjiang, as a part of China, has been involved in the 
Western Development Program, which developed in 1999 to address 
regional inequities faced by China's western regions. Eastern 
China had already gone through development programs, so in some 
ways the current policies with the Xinjiang Work Forum really 
expand upon the Western Development Program.
    When you take a look at development in Xinjiang, you 
realize that prior to the advent of, say, the People's Republic 
of China, you can see economic activities in herding, oasis 
agriculture, trade, but certainly in the modern era, the latter 
part of the 20th century with oil exploration and oil 
development, that production has been very important in 
Xinjiang's development overall. So, oil, textiles, agri-
business. Given the size of Xinjiang, the transportation 
construction development--road, air and rail--has also been 
fairly important when you take a look at it.
    Many of the transportation linkages on the rail side of 
things were very much concentrated around Urumqi, and that 
connects then by rail on to Beijing. That was built in the 
1960s. It was not until the 1990s that that rail link then 
continued on to Kazakhstan, the former Soviet Union. The rail 
goes to the south, by 1999, all the way to Kashgar.
    So this rail system is very important, just taking a look 
at the economic development of the area overall. I mean, part 
of the rationale for having the rail into the south is because 
the south is also where you start to find oil in the Tarim 
Basin in southern Xinjiang. There had already been oil 
discoveries in northern Xinjiang and Karamai, so the rail 
linkage and pipelines are also important for that area, but I 
think the rail connections into southern Xinjiang then connect 
both in terms of development, as well as the demographics.
    On the agricultural side of things, the state created the 
Xinjiang Production Construction Corps [XPCC], or the Bingtuan, 
that is, it's an army [bing] corps [tuan]. In English, it's 
just translated as ``corps,'' but it's an army corps composed 
of demobilized units from the PLA, and also Guomindang soldiers 
in the area, and some other local soldiers.
    These state farms kind of ran out in the 1960s at the end 
of the Cultural Revolution, but then they were brought back as 
a way to maintain development, but also stability and control. 
So you have got circumstances in Xinjiang with the oil, and 
then with the state farm system, the Production Construction 
Corps, that are different from other parts of China. Of course, 
in the eastern coastal areas there is oil, but you do not 
really have these kinds of state farms in other parts of China 
now. All those have gone by the wayside.
    The development program, through the People's Republic of 
China, ended up restructuring, reorienting the development 
landscape, whereas before you had traditional centers in 
Kashgar, Turpan, and Gulja--that is, Ili--now, of course, it's 
much more concentrated around Urumqi, and then the oil centers, 
such as in Karamai.
    So we have that kind of economic distinction here, so that 
now with the rail connections in northern Xinjiang, that is the 
area that has been developed mostly and has higher levels of 
income or per capita GDP. Southern Xinjiang does not. The 
economy there is mostly focused on agriculture, and with some 
small amounts of industry. But with the oil production in the 
Tarim, in the southern part of the region, you will probably 
see things increase there.
    So with oil, we see the impact in northern Xinjiang and 
Karamai, and then processing in Urumqi. We see the beginnings 
of economic development in the south as far as oil, but this 
oil does not necessarily contribute to the economic development 
for local people. It goes into the regional kind of overall 
character, but not necessarily translated into the local area. 
Many of the oil crews are from, say, eastern China, so they are 
not really involved in development of the local landscape.
    So if we take a look at the Xinjiang Work Conference, the 
new policies that Dr. Kan spoke about, there are several 
different aspects. One is the regional component. So what is 
going on now? The policy as it has developed is that, say, 
Beijing will be responsible or help the Hotan area. Shenzhen 
will help the Kashgar area.
    So you have all of these coastal provinces that are 
targeting or are going to be linked up as maybe sister cities 
or sister prefectures with various parts of Xinjiang. It seems 
that the southern area is actually getting the attention to 
have more economic development in the south. However, when you 
start taking a look at the types of projects, it seems that 
most of it is geared toward infrastructure and not necessarily 
development of human capital.
    Then you see, for example, that Shenzhen, which is next to 
Hong Kong and specializes in the export markets, is going to 
work with Kashgar. That is a completely different situation. 
Kashgar's neighbors are Kyrgyzstan and Pakistan, in contrast 
to, say, Xinjiang's neighbor being Hong Kong. It is a much 
different kind of circumstance.
    So, looking at that, you see the infrastructure development 
issue, then also this kind of regional development issue. In 
terms of demography, much of the central areas around Urumqi, 
you have a larger percentage of Han population compared with 
the south, where you have more of the Uyghur population. 
According to the government statistics, of the 21 million, 
Uyghurs are about 46 percent; the Han, 39 percent; and Kazakhs, 
7 percent. That does not count, of course, the floating 
population into the area, or military, which would be a much 
smaller number.
    Han migration has come into the area and has followed 
mostly and matches up fairly well with urban and transportation 
linkages. So with the rail linkages into Urumqi, and we see, of 
course, Urumqi is now 80, 90 percent Han population, Uyghur a 
much smaller percentage, and then even I think with the rail 
connection going to Kashgar, whereas Kashgar in the past has 
been 90 percent and more Uyghur, we expect to see that there 
will be more Han population coming into the area.
    The migrants have come from Sichuan in particular, also 
Hunan and Gansu. Gansu, of course, is a neighboring province, 
so you would expect that. Sichuan is a little farther away, but 
there seems to be a kind of a connection through perhaps the 
Bingtuan, the Xinjiang Production Construction Corps, or 
others.
    So we see that the population here is young and ethnically 
diverse. There are a number of recent migrants, perhaps up to 
10 percent of the population according to the 2000 census, and 
we will see what the 2010 census shows.
    So probably with the projects continuing, we will see a 
larger percentage of workers moving into Xinjiang from other 
parts of China, and most of these migrants will be Han. We will 
see a population shift, certainly in the north that has already 
occurred, so then it will be, to how much of an extent will 
that occur in southern Xinjiang?
    I think with the construction of the railroad system and 
then this new plan with the Xinjiang Work Conference, Xinjiang 
Work Forum, that would probably entail some transfer of 
personnel and not just money into the area, coming from the 
east coast, people with special skills and other types of 
skilled labor. That would probably increase the relative 
percentage of Han in southern Xinjiang as well.
    So, in that case then southern Xinjiang would probably 
become more like northern Xinjiang. So there is a very strong 
kind of regional component to my analysis and taking a look at 
the sorts of changes that we are expecting.
    [The prepared statement of Mr. Toops appears in the 
appendix.]
    Ms. Oldham-Moore. Thank you, Dr. Toops. We very much 
appreciate it.
    Now, Dr. Sophie Richardson. She is, as I mentioned, 
Advocacy Director for Human Rights Watch [HRW] in Asia.

 STATEMENT OF SOPHIE RICHARDSON, ASIA ADVOCACY DIRECTOR, HUMAN 
                          RIGHTS WATCH

    Ms. Richardson. Thanks very much for inviting me to be with 
you this afternoon. It should go without saying, but I will 
repeat it here, that we are big fans of the CECC's work.
    I am going to try to get quickly through a couple of 
topics, starting with a report that we released in October 
2009, in which we examined the aftermath of the July 2009 
protests in Xinjiang, which according to the Chinese 
Government, killed at least 197 people. While it is clearly the 
Chinese Government's duty to uphold public order, thoroughly 
investigate incidents of violence, and punish perpetrators in 
accordance with the law, our research indicates that instead of 
launching an impartial investigation in accordance with 
international and domestic standards, Chinese law enforcement 
agencies have instead carried out a massive campaign of 
unlawful arrests in the Uyghur areas of Urumqi, many of which 
resulted in the disappearances of detainees.
    This report documents the enforced disappearances of at 
least 43 Uyghur men and teenaged boys--the youngest was 13--who 
were detained by Chinese security forces in the wake of the 
protests. It is worth clarifying that enforced disappearances 
are some of the most alarming kinds of abuses that we deal 
with, so it is worth explaining what exactly we mean by this 
term.
    An enforced disappearance occurs when state authorities--
state authorities, not random people, but state authorities--
detain a person and then refuse to acknowledge the deprivation 
of liberty or the person's whereabouts. This is highly 
problematic because it places the person outside the protection 
of the law and increases the likelihood of other abuses, such 
as torture and extra-judicial execution. Given the Chinese 
Government's already appalling track record particularly with 
respect to torture of detainees, this takes on particular 
significance in Xinjiang.
    To date, the Chinese Government has failed to respond to 
all the inquiries made about these arrests; perhaps there is 
somebody here with us this afternoon from the Embassy, if you 
would care to explain that to us. We included in a copy of this 
report, which is standard operating procedure for us, a letter 
we sent to the Chinese Government in advance of publication 
asking a series of questions about number of detainees, the 
ethnic breakdown of them, what people were being charged with, 
where they were being held.
    Not only did we not get a response after the report was 
released on October 22, the Ministry of Foreign Affairs 
spokesperson was asked about the report. He replied that he 
``didn't know on what grounds we based our assertions'' and 
said that HRW had ``fabricated rumors to attack China on many 
occasions.''
    The severe and ongoing limitations on access to Xinjiang 
complicate what we can know about what has happened since that 
time. One of the journalists who recently traveled there 
reported having been stopped seven times by Public Security 
Bureau personnel on her first day, and she later suggested to 
us that that was actually the best day of her visit.
    We have not yet begun to conduct new investigations, but it 
is our understanding that the problem remains as serious now as 
it was then. Another journalist who was in Urumqi last month 
quoted a 33-year-old Uyghur resident of Urumqi as saying, 
``Every single family on this block is missing someone.''
    One of the issues I was asked to touch on today has to do 
with violations of due process that have compromised the 
possibility of fair trials for defendants. It is worth pointing 
out that these are all problems that are pervasive throughout 
China, where the judicial system is highly politicized.
    The first problem has to do with restrictions on legal 
representation, including the fact that judicial authorities in 
Urumqi and Beijing, on July 11--so just a few days after the 
protest started--effectively warned lawyers against accepting 
cases related to these protests.
    At the same time, partners of law firms were told to 
``positively accept monitoring and guidance from legal 
authorities and lawyers' associations,'' meaning, let the Party 
decide how these cases should be handled, not the law. Multiple 
examples of the over-politicization of the judiciary here would 
point to the president of the Xinjiang High People's Court, a 
memo dated July 16, 2009, saying that the Xinjiang judicial 
authorities to hear these particular cases have been ``selected 
politically qualified personnel drawn from the entire region,'' 
so again, not really much of an interest there in upholding the 
law.
    Third, I would point to the failure to publicly publish 
notification of the trials. This is a clear violation of 
China's own criminal procedure laws. Then, fourth, the failure 
to hold genuinely open trials, which is also mandated by law in 
China. The same July 11 warning that placed certain limitations 
on lawyers also prohibited them from talking to the media or 
discussing these issues online.
    In the past, we know that authorities have arbitrarily 
restricted people's ability to actually be in the courtroom, 
and instead essentially packed the room with court personnel 
and civil servants. And while we do not know who was actually 
present at these trials, we know who was not. That includes 
members of the foreign press, diplomatic representatives, 
family members, or other associates of the people being tried.
    Very little information is available about the trials that 
have taken place to date. We, and others, are aware of the 
announcement made by Nur Bekri in March 2010 that 198 people 
have been tried, but that is really about it. We have no reason 
to believe why these trials should be any better than any of 
the ones that preceded them in either Xinjiang or in any other 
part of the country.
    We do not know all that much about the sentences that 
people have been given. We know that reeducation through labor 
has been a very common penalty applied in the past, which has 
the additional effect of keeping people from talking to their 
family members or appealing their charges, and it is a way also 
of circumscribing criminal investigations.
    With the appointment of Zhang Chunxian, who has sort of 
been offered up as the warm and fuzzy alternative to Wang 
Lequan, the questions are, will his leadership really result in 
any sort of policy changes? Will it be better, will it be 
worse? He seems--it is a relatively recent development, but 
from our perspective--he seems to be trying to bring a new 
style of governance to the region.
    He appears to be trying to be popular, which is setting the 
bar kind of low. By the time Wang Lequan finished, he had not 
only alienated Uyghurs, but he had alienated a significant 
chunk of the Han population by not being tough enough on 
Uyghurs. So, there is really no place to go but up.
    He seems to be trying to administer the province along more 
sort of normal lines rather than as a special security problem. 
He is engaged in a flurry of activities, including talking 
publicly about the importance of opening up the Internet and 
trying to be sort of more visible. We will see whether this 
turns out to be a good thing or bad thing.
    From our perspective, there also appears to be a little bit 
more of an acknowledgement of the socioeconomic roots of ethnic 
disenfranchisement and possibly--possibly--an attempt to reach 
out to a new generation of Uyghur graduates that is conversant 
in both cultures, but this really could go either way. This 
could be a very concerted effort. We have seen similar efforts 
elsewhere in the country to co-opt this generation rather than 
actually give it real autonomy.
    In retrospect, it looks like the July protests finally 
prompted Beijing to allow some discussion over issues that were 
previously politically taboo, contrary to Tibet where the 
united front has really blocked the way for policy adjustments. 
Beijing has acted with uncharacteristic speed and determination 
in the case of Xinjiang. The $64,000 question, of course, is 
whether this will be enough and whether this will be a good 
thing, and the jury is really out on that.
    Fundamentally, some of the policy changes or adjustments 
that we have seen in the last few months are ones of magnitude, 
not of direction. The simple take-away here is that Uyghurs are 
still excluded from the decisions about the future of their 
homeland. They are no more empowered to participate in those 
discussions now than they were at the time of the protests. 
Discussions about autonomy are absent from the political 
discourse, and there is no discussion of the issues that top 
the list of Uyghur discontent, including discrimination, Han 
in-migration, and ever more invasive curbs on language, 
culture, and religious expression.
    I would couple with that some particularly aggressive 
externally oriented policies we have seen from the Chinese 
Government about Uyghurs, not least incredible pressure from 
the Chinese Government on Cambodia and a couple of other 
central Asian governments to force back to China Uyghurs who 
were seeking asylum, and also a whole new level, I think, in 
the campaign to essentially paint all Uyghurs worldwide as 
terrorists.
    At the end of the day, this is a pretty volatile mix. The 
chief source of Uyghur alienation is a perception that they are 
becoming strangers in their own land, and without any sort of 
stake in the place's future, I think people may wind up 
behaving very differently regardless of what the policies 
actually are.
    I want to touch very quickly on some of the recommendations 
that we have made, particularly to the Chinese Government: That 
it end the practice of enforced disappearances; that it release 
accurate information on all those detained, released, and 
formally arrested in the aftermath of the protests; that it 
release all of those against whom no charges have been 
brought--that is a pretty novel concept; ensure that peaceful 
religious observation and practice are not equated with, or 
incur liability from, state security forces; and end the 
criminalization of the advocacy for Uyghur autonomy.
    Quickly, on the recommendations that we have made to the 
U.S. Government and to other members of the international 
community, ensure that your own policies regarding terrorism 
and counterterrorism do not exacerbate problems in Xinjiang. 
The threat of 
terrorism cannot be used to justify the repression of a 
particular ethnic minority, and I am not entirely confident 
that the U.S. Government is really following through on this. 
It is a very important part of the debate.
    The United States and others should extend full and active 
support to an international investigation into the Urumqi 
events under the auspices of the UN Office of the High 
Commissioner for Human Rights. The United States should 
continue to press the Chinese Government for accountability.
    The United States should offer asylum to Uyghurs under 
threat of being returned to China. Every U.S. Ambassador 
worldwide: if you have Uyghurs and if they are under some sort 
of threat of being sent back to China, don't mess around. Open 
the door, let them into the Embassy, bring them here. It is no 
more complicated than that.
    Then last but not least, reject the idea that any 
discussion of the human rights in Xinjiang, Tibet, or any other 
part of the PRC constitutes a violation of the ``core 
interests'' articulated by the People's Republic. This is a 
term that is nothing more than the PRC saying we don't want to 
talk about this, and if anything should direct the U.S. 
Government's human rights agenda in China, it is precisely that 
which the Chinese Government labels as a core interest.
    Thank you.
    Ms. Oldham-Moore. Thank you, Sophie. It's always a pleasure 
having you here.
    Now we are going to open it up to our audience.
    So, the first question will come from Kara Abramson, and 
then we'll turn to the audience. You can project if you know 
you're good at vocalizing. Stand up and just project. If you 
know you need a little electronic help, we have a microphone up 
here.
    Kara is going to start us off.
    Ms. Abramson. Thank you. And thanks to all of the panelists 
for your testimony today.
    I'd like to ask a question about the Xinjiang Work Forum 
which took place in May. My question is, are these new 
initiatives likely to be successfully implemented? The scope is 
large. It's a really ambitious program. Some aspects of it, on 
paper anyway, could be potentially positive, and other aspects, 
clearly less so.
    We have seen plenty of cases of Chinese Government projects 
that have fallen flat on implementation, and the Work Forum has 
set some very ambitious targets: 2015 to meet basic goals, 2020 
to have an all-around ``healthy society'' in Xinjiang.
    Already we have seen criticism of existing counterpart 
programs in Xinjiang, where cities and localities on the 
eastern seaboard of China provide assistance to Xinjiang. These 
programs already have been in place in Xinjiang for 13 years, I 
think. We have seen criticism that, to date, they have not been 
that effective. So in terms of the current Xinjiang Work Forum, 
how successful is the government going to be in implementing 
various objectives? Is there the will and the resources to make 
it different this time?
    Ms. Oldham-Moore. Any panelist who wants to take this 
question, please? You want to, Stan? Great.
    Mr. Toops. I think that the Xinjiang Work Forum or Xinjiang 
Work Conference is interesting in that, in part, it seems to be 
modeled on previous conferences and work forums in Tibet. So it 
is kind of taking a Tibet model--and that has been very 
successful of course [winks]--to take a look at that in 
Xinjiang.
    The other kind of component is that it is having various 
provinces involved, and to what extent will the provinces feel 
that, yes, we support the central government, therefore we are 
also going to support the activities going on in Xinjiang. So 
it depends on the kind of attitudes for the various east coast 
provinces.
    Ms. Oldham-Moore. Can you talk about that in some detail? 
What that means is east coast provinces have to fund, send 
their money, to Xinjiang. Isn't that right?
    Mr. Toops. Well, in some cases it is more money or 
technology or experts, or some sort of assistance. So it's kind 
of like overseas development assistance, but it's situated 
within China. So, it's like an internal development program, in 
a way. In the United States, in different parts, you have 
various kinds of policies for poverty-stricken areas and those 
kinds of things.
    But it's to have it that somehow one province is going to 
take responsibility for what is happening in a prefecture of a 
city in Xinjiang, which is a kind of an interesting pairing to 
take a look at. I think that is where the difficulty, at least 
in terms of the logistics, might be. But maybe then it would 
involve these various provinces, and it's not just a central 
government kind of program.
    Ms. Oldham-Moore. Good. Okay. Yes? Then we'll go to the 
audience.
    Ms. Richardson. I would just tack on two quick points, one 
of which is that the Tibet model hasn't necessarily worked all 
that well in Tibet. I mean, the Chinese Government can spend as 
much money as it wants, but this is not a problem fundamentally 
that you can spend your way out of.
    And while I can't speak nearly as well as the other 
panelists can to whether the Chinese Government can follow 
through on sort of the hard data--spending, education, those 
sorts of things--the idea that by 2015 they will have 
established a harmonious society in Xinjiang is reasonably 
laughable, as long as the population itself does not get to 
have a part in that conversation.
    One of the things that concerns me, actually, about the 
goals set out by the Work Forum is that the narrative that the 
central government has given out, and that I think a lot, 
particularly, of the urban Han population has bought into, is 
that the central government has pumped enormous resources into 
this region and into Tibet, and look at these ungrateful 
minorities. Look at what they turned around and did to us, 
right?
    And as we're seeing the economy slow down in a couple of 
different parts of the country, it really concerns me that if 
they continue to pump a lot of money into Xinjiang, the stakes 
are going to be that much higher to deliver on some kind of 
security, but it shouldn't necessarily be confused with a kind 
of stability.
    Ms. Oldham-Moore. Great. Thank you.
    Let's go to the audience. The gentleman with the blue 
shirt?
    Audience Participant. This question is for Sophie 
Richardson. Even though the Chinese police forces are in some 
way [inaudible] are there any indications that these abducted 
civilians are being forced into a form of human trafficking?
    Ms. Richardson. We have no information that would enable me 
to answer that question. None. Sorry.
    Ms. Oldham-Moore. Anybody else want to take that on? No. 
Okay, to another question. Mr. Pillsbury?
    Mr. Pillsbury. Michael Pillsbury--I have a question about 
the Uyghurs outside of China [inaudible] Han in some of the 
regions [inaudible] as well. I'm trying to understand the 
difference between the world reaction to Tibet over the last 20 
or 30 years and contrasted to Uyghurs in the sense of asking 
this question: What would it take to have the same level of 
concern about the Uyghurs as the world has about Tibet? Now, I 
can think of some more specific sub-questions. It seems to me 
the Tibetans have a long history of involving Western 
governments.
    If you look at various memoirs, even in the 1950s they were 
already making contact [inaudible] they have the Dalai Lama as 
a religious figure. They have a government in exile. They have 
a 
parliament they elect people to. They seem to have a set of 
organizations around the world with names like the 
International Campaign for Tibet. So my specific question is, 
is there anything like that for the Uyghurs now, and what would 
it take to have that sort of thing [inaudible] much worse level 
of oppression [inaudible] in Xinjiang before that will ever 
happen. Then [inaudible] Muslim world should be more concerned 
about Xinjiang than they are. So my general question is, what 
is the level of concern by governments on the outside of 
Xinjiang for Uyghurs in Xinjiang?
    Ms. Kan. Because I work at CRS, I really cannot get into 
any policy recommendations. But I would just note, in answer to 
your question directed at me, that there has been increased 
attention by foreign governments, including the U.S. 
Government, to Uyghurs because of what has happened since 2001. 
There's been more attention than ever.
    If we think back to the 1990s and the unrest and crackdowns 
and manhunts that took place in the 1990s, very few Americans 
actually knew about what was going on. We had groups like 
Amnesty International that tried to show the spotlight when a 
lot of people didn't understand.
    So actually the Uyghurs have seen an increase in attention, 
international attention, and an increase in governmental 
support, no less by the President of the United States himself. 
President Bush met not once, but twice, with Rebiya Kadeer, the 
leader of the democratic organization for the Uyghurs.
    Second, the Uyghurs also have seen increased legitimacy 
around the world, legitimacy provided not only right here in 
the Congress, but also as I mentioned by the White House itself 
and by the increased attention of a lot of groups, like the 
National Endowment for Democracy, Human Rights Watch, and 
Amnesty International. So, there's been increased attention at 
the official level and increased legitimacy as compared with 
the Tibetans.
    For those who have worked in Congress for many years, we 
can remember days when we would talk about the PRC and Tibet, 
and that would be the end of it. Today, it is different. It 
would be the PRC, people in Tibet, and people in East 
Turkistan, or Xinjiang. Now, we see people talking about the 
Tibetans and the Uyghurs in the same sentence. So, that is also 
a change.
    Also, in 2002, the Assistant Secretary of State for 
Democracy, Human Rights, and Labor himself went to Xinjiang. We 
have not seen that repeated, but it's possible. It is also 
possible that our current President could meet with Uyghur 
leaders. But that has been the trend over several years.
    Ms. Oldham-Moore. Thank you, Shirley.
    Sophie, did you want to comment? You don't need to, but if 
you want to. Okay.
    Ms. Richardson. I would associate myself with everything 
that Charlotte and Shirley have just said, although would toss 
out the clarification that this White House doesn't seem to 
have gotten around to receiving Mrs. Kadeer yet. At the same 
time, this administration could undo one of the Bush 
Administration's mistakes and think really carefully about 
whether there even is an organization called ETIM and whether 
it deserves to be on the terrorist watch list.
    Ms. Oldham-Moore. What is ETIM? No acronyms.
    Ms. Richardson. The East Turkistan Independence Movement, 
which is an organization the Chinese Government insists exists 
and is a terrorist organization. Many other knowledgeable 
people dispute that claim.
    And one of the huge obstacles the Uyghur community globally 
has been combating over the last 10 years is that really sort 
of one of the first gestures of attention to Xinjiang, at least 
in recent memory, was either Gitmo, where you saw a lot of 
perfectly innocent Uyghurs getting locked up and labeled, in 
effect, by the U.S. Government as terrorists, and then followed 
by the somewhat schizophrenic position that the Uyghurs who 
were let go had to be resettled someplace other than China 
because they have a legitimate fear of persecution if they were 
sent home.
    But putting ETIM on that list at the Chinese Government's 
request really contributed, I think, to a perception worldwide 
that Uyghurs, you know they're Chinese, but they're Muslim, but 
we're not really sure who they are, and it all sounds a little 
dodgy. I mean, there's a fair amount of just ignorance and 
racism at work here, coupled with shortcomings or oversights in 
U.S. or European policy. I think it's a problem that this is 
not just a question of how the United States or Europe has 
responded. I think it's also that the global Muslim community 
has not stood up really on behalf of the Uyghurs.
    To the extent that there was anything positive in the 
fallout from the protests last year, it was that you saw a 
little bit of flag flying from Muslim communities in Turkey and 
in Indonesia, which showed a little bit of solidarity, but you 
don't see the big organizations speaking out about the 
persecution of Uyghurs.
    But to answer your approximate question very quickly, yes, 
there is a World Uyghur Congress. Some of the people who are 
sitting behind you can explain that to you. There are a number 
of NGOs that do research and advocacy work, but they simply do 
not have the global footprint or recognition that the Tibetans 
have had.
    Ms. Oldham-Moore. Yes, sir. I'm sorry. Did you want to say 
something, Kara? Okay. Yes, sir?
    Mr. van der Wees. Hi. My name is Gerrit van der Wees. I 
work for the Formosan Association for Public Affairs in 
Washington, DC. I have a question on the linkage between East 
Turkistan and Taiwan. In a sense, it's a followup from Mike 
Pillsbury's question.
    Last year, Mrs. Kadeer was blocked from entering Taiwan 
[inaudible] and the showing of her movie. Just last Friday, one 
of her associates was also blocked by the present government 
[inaudible] human rights and democracy, and there's really a 
very [inaudible] notion of justice and democracy in Taiwan. The 
Government in Taiwan is increasingly leaning toward the PRC 
[inaudible].
    So my question is, connecting the dots here, that Tibet 
[inaudible] Taiwan, can we look at this in a holistic fashion 
because the PRC Government is trying to [inaudible] one-by-one 
and then focus on the next one. [Inaudible.]
    Ms. Oldham-Moore. Thank you for your question, because we 
hear, again and again, core interests: Tibet, Taiwan, Xinjiang. 
These are our core interests, stay out. So, thank you for your 
question.
    Does anybody want to respond? Ms. Kan?
    Ms. Kan. There was concern last year, when Taiwan's 
Minister of Interior baselessly branded Rebiya Kadeer as a 
``terrorist'' and denied her a visa, apparently when she didn't 
even apply for one. Now we see that her daughter is there for a 
screening of ``Ten Conditions of Love.'' There are reports that 
Kadeer, again, was not welcomed.
    This policy repeated again this year is likely to increase 
concerns about Taiwan's Government, because its approach is at 
odds with that of the United States, Japan, and other 
countries. It does not make any sense, because that implies 
somehow the United States is harboring a ``terrorist'' right 
here in Washington with an office practically across from the 
White House. President Bush would not have met with such a 
person, so it does not make any sense, and it will increase 
concerns. Thank you.
    Ms. Oldham-Moore. Do you want to say anything, Lisa? Okay. 
No? Okay. It's outside our mandate, so I'm not going to speak 
to that, but it's a very provocative and interesting point.
    Yes, sir? Please.
    Audience Participant. Just a more general question. Is 
there any evidence of foreign organizations or countries 
aggravating the situation?
    Ms. Oldham-Moore. That's a very good question. I don't 
know. Do you mean on the ground in Xinjiang?
    Audience Participant. Mostly on the ground.
    Ms. Oldham-Moore. Anybody want to take that, or take a 
pass?
    Ms. Richardson. I need to know a little bit more what you 
mean by ``aggravating.''
    Audience Participant. Such as supplying any form of 
terrorist action or simply [inaudible] for reasons of their 
own.
    Ms. Richardson. Well, if you're talking about something 
like selling weapons to some sort of Uyghur separatist groups, 
I don't think I can help you very much on that.
    Again, I would point to governments who have taken 
rhetorical or political positions that have helped make it 
easier for the Chinese Government to paint Uyghurs as 
terrorists, but there are a number of academics, and certainly 
people in the security community, who do follow these sorts of 
things and I'd be happy to point you to some of their work.
    Ms. Oldham-Moore. I have a question, if one of you would 
like to take it real fast. There was a tremendous amount of 
Uyghur-on-Han violence. During that very dark, hot summer last 
July in Xinjiang, there was a lot of Uyghur-on-Han violence, 
and there was also a great deal of Han-on-Uyghur violence. Both 
groups suffered tremendous harm.
    If you could flesh out for me or explain and fill in for me 
a little bit, what were the Han grievances? What are the Han 
grievances or beefs with the Uyghur community? Maybe Dr. Toops 
could share with us what your understanding is of resentments 
or grievances the Han may have about the current situation in 
Xinjiang.
    Mr. Toops. I think there are different kinds of things. 
One, is to look at the violence in July last year. Then there 
was a response from some members of the Han community to attack 
members of the Uyghur community within Urumqi, but that was as 
much saying that the state somehow was not doing enough to 
protect them. This was also, along with the cost, to have the 
leadership, the Party leadership, change within Xinjiang, and 
now that has, so in some ways you can look at it in that kind 
of context.
    In another kind of context, it is more a view about, say, 
kind of affirmative action policies in Xinjiang, if you're 
Uyghur, if you get a score, you get added points to maybe go to 
college or something like that. Of course, the college exams 
are in Chinese, so it's not like you get that much points to 
compensate overall. But somehow a feeling that there's some 
sort of a sense of entitlement.
    But I think it works the other way as well, where some 
Uyghurs would feel that the Han have a sense of entitlement 
within their region, and to call it the Xinjiang Uyghur 
Autonomous Region when it is not so autonomous is very 
problematic. So I think it works on different levels. The part 
about the violence, that's unfortunate no matter who is 
involved there.
    But the other kind of feelings about, somehow in Xinjiang, 
many people feel they are a minority, that Han in Xinjiang feel 
they are a minority, that it's not a situation where the Han 
are the dominant in the demography of the area. Then for 
Uyghurs, Kazakhs, or others, they also feel that they're a 
minority. So, everybody has a little bit of that, so I think 
that's a broader kind of construct rather than talking about, 
say, the issues of the violence.
    Ms. Oldham-Moore. That's extremely helpful, thank you.
    Yes, sir?
    Mr. Fox. Hi. My name is Henry Fox. I'm an intern here on 
the Hill. I think it's significant that we're actually 
discussing this in this room--the Indian Affairs Committee 
room--which has a lot of pictures in this area about autonomy 
and its history in this country. It's relevant that the 
[inaudible] national lacrosse team did not get access to 
England to get to the [inaudible] tournament. There are a lot 
of issues [inaudible] political assassinations. So given that 
we have issues within our country and we have one of the most 
represented democracies in the world, what would an ideal 
situation for autonomy be for this group in China?
    Ms. Oldham-Moore. That's excellent. Do you want to take 
that, Kara? Shirley, do you want to take it? Kara, you should 
reply, too.
    Ms. Kan. Well, I think this might not be the time to inject 
Hawaiian sovereignty into the discussion. Anyway, that's 
another story. We don't want to get sidetracked into something 
very much alive, even here, with Hawaiian sovereignty. But 
there is a question of autonomy.
    One possible way is to basically call it like it is. I 
mean, I think it's questionable when reporters, researchers, or 
people who should know better continue to use the term 
``Xinjiang [Uyghur] Autonomous Region'' without pointing out 
that there is no autonomy and that's just an Orwellian term to 
use. That's one thing, to recognize that there is no autonomy, 
just like in Tibet.
    The second thing is that I think there have been some calls 
for dialogue. I think some people have mentioned about looking 
at the Tibet experience--I don't want to say model, but let's 
say experience. There is a record to go by, and the United 
States has supported dialogue. So is there some way to look at 
that experience? I'll stop there.
    Ms. Oldham-Moore. That's great.
    Ms. Richardson. I would just add onto that that, like a lot 
of Chinese laws, the autonomy law is pretty good on paper. I 
would strongly urge you to go and read it and understand 
exactly what it spells out as not just possible, but what 
actually ought to be happening and contrast it to the reality. 
I mean, what the government has on paper already committed to 
is not bad. The problem is, there is absolutely no 
followthrough on it.
    Ms. Oldham-Moore. I think the CECC, in its reports and 
recommendations, previous, has said implementation of Chinese 
laws on autonomy would be a huge step forward. Chinese laws on 
the books on autonomy and how that is structured are not bad. 
If those laws were actually fully implemented, it would be a 
significant step forward.
    Ma'am?
    Ms. Hopkins. Hi. I'm Lisa Hopkins and I work at the Army. I 
would like to ask, how does information flow or not flow out of 
Xinjiang, and how is it that we know that we understand the 
situation on the ground?
    Ms. Oldham-Moore. Lisa, you may know more than we do on 
that question. Does anybody have anything to say on that? Lisa, 
do you want to comment on that? I'll take your name out of the 
transcript.
    Ms. Hopkins. [Inaudible.]
    Ms. Oldham-Moore. Okay. Okay. Oh. Excuse me. Shirley? 
Please.
    Ms. Kan. As I mentioned in my remarks, I think it's been 
encouraging that foreign reporters were allowed into Xinjiang, 
both last July as well as this year. That really contrasts with 
the lack of foreign reporting, I think, in Lhasa in 2008. 
During the riots in 2008, there was only one foreign reporter 
who just happened to be there. He was a British reporter, and 
he was able to get out some very good information.
    Then someone else earlier mentioned about the harassment. 
So even when reporters are going in from Japan, from the United 
States, from Hong Kong, from other places, they face severe 
harassment. They have been beaten up, where it has required 
diplomatic protests.
    So with these kinds of things, there would be a question of 
whether the U.S. Government follows up on such harassment, 
would seek to get greater assurances against these kinds of 
physical as well as other kinds of harassments against foreign 
reporters, and would continue to encourage a good trend, to 
give some credit where credit is due, when there are foreign 
reporters who have been allowed in.
    Second, American diplomats. We do not have a consulate 
there--we have one in Chengdu, but there would be a question of 
whether American diplomats would be able to travel. Now, 
significantly, I have not seen our ambassador go out there. So, 
I mean, how many times can you go to Shanghai? [Laughter.]
    Ms. Oldham-Moore. No. But it's a very good point you raise.
    Ms. Richardson. In a perfect world, we are able to actually 
send researchers openly to the country that they're working on, 
and in a perfect world we're able to have conversations 
directly with a variety of the actors who are involved in 
whatever the kind of problem is, hence the letter here to the 
government.
    With a country that is incredibly hostile to, among others, 
international human rights organizations, obviously you've got 
to play things a little bit differently. We try to talk to as 
many people as we can, particularly people who we suspect might 
tell us something other than what we expect to hear. We try to 
talk to lots of different communities geographically and we try 
to consult with as many other people who have looked at the 
same situation to see if the information somehow significantly 
differs.
    In a case like this where you're talking about an 
unbelievably tense security environment, a lot of restrictions 
on movement, enormous restrictions on the people that you're 
trying to talk to, and then you superimpose on top of that a 
seven-, eight-, nine-month-long blackout on all communications, 
which we haven't really talked about much----
    Ms. Oldham-Moore. Yes. Which is the Internet shutting down, 
basically.
    Ms. Richardson. Internet, cell phones, SMS capabilities. 
Lots of forms of communication to the entire region just shut 
down made it that much more difficult.
    If I'm remembering correctly, this report involves 
interviewing people in 11 different countries. Well, we'll 
leave it at that.
    Ms. Oldham-Moore. Yes, please?
    Ms. Kan. And since we are here in Congress, it's very 
important that there is another option to consider, which would 
be the visits by staff and Members--and there's someone in the 
room now, talk about giving credit where credit is due--whereby 
staff have gone and reported on their visits to Urumqi and what 
was happening on the ground. And that kind of thing can also be 
important for getting information as well as showing 
international attention and monitoring. Thank you.
    Ms. Oldham-Moore. Yes, please?
    Ms. Richardson. Can I just make a quick recommendation to 
the Commission, if it is within your mandate? I think actually 
it would be incredibly helpful if somebody kept and publicized 
a roster of who is asked to go and when, and whether they got 
turned down, because I'm aware of various staff members who 
have asked to go, I'm aware of people in the Embassy in Beijing 
who have asked to go. Just because they get turned down doesn't 
mean that we should acknowledge their efforts, but it can be 
very hard to know even who has made the effort, and when.
    Ms. Oldham-Moore.  There is an amendment floating around in 
Congress that would mandate reporting on visa and permit 
requests by U.S. academics, and U.S. Government officials, 
including Congressional and State Department staff, to visit 
China or specific regions like Tibet and Xinjiang. The 
amendment would require that our government report on the known 
number of those requests, and the number of visa and region-
specific denials the Chinese Government imposed. Many Members 
of Congress continue to be alarmed by the number of China 
academic experts who are denied visas, because the Chinese 
Government is displeased by their research topics. Also, they 
are alarmed by the number of U.S. Government officials and 
staff who are not permitted to travel to China. This is the 
case despite the large numbers of Chinese academics and Chinese 
officials who travel to the United States without facing 
significant obstacles in entry.
    Yes, ma'am? Please.
    Audience Participant. Hi. Thank you for doing this. 
[Inaudible] from the [inaudible] we've reported pretty 
extensively on this, but I always wondered what we're leaving 
out. I know that [inaudible] on this last week [inaudible] on 
the anniversary of the demonstrations and riots. I'm just kind 
of wondering, is there any information that [inaudible] but is 
there anything big that we're not reporting? [Inaudible.]
    Ms. Oldham-Moore. That's a great question. Let's go, girls 
and boy. Now's your chance.
    Ms. Richardson. I'm happy to tell you what's at the top of 
my list, which is really detailed information, pretty granular 
stuff, about the number of death sentences that have been 
handed down and carried out.
    Ms. Oldham-Moore. Dr. Toops, is there something you think 
should receive greater coverage in the mainstream media?
    Mr. Toops. I think a lot of times elements of the 
mainstream media, they might have some experts that speak 
Chinese and they know something about China, but very few would 
speak Uyghur or Tibetan or something like that. So then they 
have to go through third parties as translators, and sometimes 
these things just don't translate very well.
    So a long-term analysis, at least from an academic 
perspective, is really lacking in terms of looking at what's 
coming out of the media. So, it's rather to try to understand 
the kind of social contacts that are going on in Xinjiang. 
There was some mention here made about Hawaii. It was like, 
well, there are lots of issues in the United States. Of course, 
that's not the purview of this Commission, but in some ways 
they're similar, and in other ways, not. At the same time, 
there have been riots in the streets in different parts of the 
United States. So, I have to kind of take it into overall 
context.
    Ms. Oldham-Moore. Yes.
    Ms. Kan. I guess I will just say two things, briefly. One 
would be, from the perspective--I know you're writing for a 
Japanese newspaper, but I think this does not pertain only to 
U.S. security interests, this would also pertain to a lot of 
the security interests of Japan and the countries around the 
world. We are very concerned about the ability to stabilize the 
situation in central Asia in Afghanistan and elsewhere. 
Stability requires a comprehensive multilateral, multinational 
approach involving the resources and attention of many 
countries, and Japan has contributed significantly to our 
efforts.
    The Uyghurs in Xinjiang are very well-positioned to provide 
the links to play a greater role in the economic development 
and the greater stability of central Asia. They have the 
linguistic links. They have the historical links. They have the 
trade ties. They may even have family ties. They can play a 
much greater role, and it does not necessarily require people 
to be forced into learning Mandarin or something like that. So 
there are contributions that perhaps we may be missing, or we 
could encourage, or we have not seen in terms of economic and 
humanitarian people-to-people links.
    Ms. Oldham-Moore. Great.
    Mr. Halpin?
    Mr. Halpin. Yes. I was going to comment about this question 
about access. An issue for [inaudible] and I think when I made 
my famous ill-fated trip to Xinjiang--what we were talking 
about, it led to a reaction where there was the rounding up and 
actually detention and abuse of Mrs. Kadeer's children. But we 
were very fortunate to be [inaudible] there was one Fulbright 
scholar who was actually there, and we did get to meet her and 
have a very good discussion.
    I would just say there's nothing like striped pants on the 
ground, as opposed to boots on the ground. In Mr. Lantos' act, 
he called for us to try to negotiate a consulate in Lhasa, and 
the same could be said for Urumqi or other places in western 
China. We see this with Shenyang and the Korean border and 
refugee issues.
    As restricted as UNHCR is in Beijing, as restricted as we 
are, we've had some great information come out of that 
consulate in Shenyang by [inaudible] at least the general 
proximity of the Korean Autonomous Prefecture. There's always 
been officers in Shenyang who really contributed a lot to our 
understanding. So I think we know the Chinese, they're great 
horse traders. They still want, I guess, Atlanta, Boston----
    Ms. Oldham-Moore. And Hawaii. They want Hawaii.
    Mr. Halpin. Yes. Atlanta, Boston, and Honolulu. Right. I 
guess we've got the American Presence Post, open up that APP, 
that old Condoleezza Rice idea of the one-person post. But 
another one person and another city on the east coast of China 
does not meet the national interest of the United States.
    So I guess in response, I guess it has to be 
legislatively--and it can't even be as nice as Mr. Lantos was, 
suggesting to the State Department or to, whether it's the Bush 
Administration or the Obama Administration, that you would have 
consulates, but to say on reciprocity, there will now be no 
Chinese consulate in Boston, or Honolulu, or Atlanta until we 
have consulates in these western areas of China.
    They are supposedly wanting to expand trade, the ``Go West, 
Young Man'' movement to develop these areas, and they are going 
to be more internationalized. We had an issue where there was 
an arrest in Tibet of American citizens. As tourists, we have 
consular issues. I guess you just have to legislatively say, if 
you want Boston, we want--if you want Honolulu, we want Urumqi. 
Make it very clear as a reciprocity issue.
    Ms. Oldham-Moore. Thank you. Thanks.
    Ms. Kan. I'd just add one thing.
    Ms. Oldham-Moore. Yes.
    Ms. Kan. Outside of government, there are, of course, a lot 
of universities and academics doing a lot of research. One of 
the problems that we hear about over the years is some sort of 
a blacklist that would be kept on certain academics. So the 
question then for our side is: What are these universities 
doing about it? Are they standing up to it, are they holding 
their own united front, or are they appeasing at the expense of 
intellectual freedom and academic pursuits?
    Ms. Oldham-Moore. That is a very excellent question. 
Somebody want to take this on? Do you want to respond, anybody? 
Okay. Yes. Amy?
    Ms. Reger. I'm Amy Reger from the Uyghur Human Rights 
Project. I think one of the things we're trying to stay 
concerned about is the [inaudible] acknowledge, certainly on 
the part of the Chinese Government, but also on the part of the 
international community, that there was use of live fire by the 
state last year--and there has been [inaudible] on the 
aftermath and repression of Uyghurs, such as [inaudible] 
excellent Human Rights Watch [inaudible] this last December.
    There has been, in my opinion [inaudible] to Uyghur 
accounts of violence committed by the state against Uyghurs, 
and we certainly appreciate the [inaudible] in response to the 
questions about information, it is certainly very difficult for 
us to get information about [inaudible] information that we 
have gotten from interviews of Uyghurs who were in Urumqi on 
July 5 and afterward, and also that Amnesty International has 
gotten from Uyghurs [inaudible] accounts [inaudible] against 
Uyghurs [inaudible] more international attention [inaudible] 
but if I can ask another question, I just wanted to remark on 
Dr. Toops' comment about the perceived perception of Uyghurs 
having special privileges. I think that's a really good 
observation.
    I recently [inaudible] that was written by [inaudible] I'm 
not sure if they were from Beijing or if they were from 
[inaudible] but they also remarked on these, what they 
perceived to be special Uyghur privileges, such as the lower 
requirements to get into university or the allowance of Uyghurs 
to have more children. I just wondered if you could speak more 
about whether you think now [inaudible] government policies 
[inaudible] perceived privileges or if perhaps there might be 
an implication of [inaudible].
    Ms. Oldham-Moore. Okay. Thank you. I think I got the second 
part of the question, which was Han perceptions of special 
privileges for Uyghurs. Do you guys want to speak to that 
again? No, I guess not. Amy, we got it. I think we can have a 
further conversation up here. Okay? Thanks.
    Does anybody else have a question, a quick question before 
we close down? One last question. Come on. How about the man in 
the uniform? No? No? We all want to hear from you. Anna 
Brettell.
    Ms. Brettell. You started talking about the news blackout 
in Xinjiang, but could you tell us a little more about the 
scope and timing of the blackout? What has happened recently, 
is the Twitter site working? Do people across the province have 
access to the Internet?
    Ms. Oldham-Moore. And is Twitter up?
    Ms. Richardson. Twitter?
    Ms. Oldham-Moore. I can answer that question: No.
    Ms. Richardson. I'm showing my age. But the question about 
the media blackout, the Chinese Government revised its 
playbook, I think, in responding to these protests, clearly by 
looking back at what, from its perspective, had gone wrong in 
Tibet. From its perspective, one of the problems became not 
letting the media in itself. I mean, this is just a total no-
brainer, if you know journalists. If you don't let them in to 
report, not letting them in to report becomes the story.
    So the response in Xinjiang was to let them in, but to try 
to control the story. The other piece of the puzzle was 
essentially to shut down really all means of communicating with 
the outside world. It became very difficult for, I think it was 
about nine months, to have any kind of email exchange, any sort 
of electronic communications. Again, I don't want to give Zhang 
Chunxian any credit before he's actually earned it, but he was 
the one who said, shortly after being appointed to this new 
position, ``There can't be an open Xinjiang without an open 
Internet.''
    Now, that's a very nice idea. We'll see if his idea of an 
open Internet is consistent with what people who are accustomed 
to a genuinely open Internet would think of or whether he's 
talking about what the Chinese Government thinks of as an open 
Internet, which is still not nearly what we would all like it 
to be. The ability to report on and get information in and out 
is still very difficult. Getting people in and out, getting 
stories in and out, getting information corroborated can be 
very difficult. That's ongoing.
    Twitter, as I understand it, over the last couple of weeks, 
has kind of come and gone. We've done a little bit of Tweeting 
with some of our friends; sometimes it's worked, sometimes it 
hasn't. But as I understand it, there are a couple of different 
potential technological explanations for that.
    Ms. Oldham-Moore. Okay. Thank you.
    And Kara Abramson will wrap up.
    Ms. Abramson. Great. Actually, may I wrap up with one 
question?
    Ms. Oldham-Moore. Yes.
    Ms. Abramson. Do we have time? Great. I will take advantage 
of having the microphone and do that.
    One issue that we haven't touched on today is the Chinese 
Government project to demolish and reconstruct the old city of 
Kashgar. I would be interested in hearing the panelists' 
perspectives on why this is being done. Dr. Toops, you've 
looked at Silk Road tourism. The old city of Kashgar is a huge 
tourist site, so on one level we have to ask, isn't the Chinese 
Government shooting itself in the foot by getting rid of this 
excellent tourist attraction? I'd like to hear from all of the 
panelists, or whoever would like to address this. Why this is 
taking place and what's the logic behind it?
    Mr. Toops. The stated logic behind the destruction of those 
old buildings is that they are old and that it's unsafe and 
it's not up to standards for housing, and to have a more 
developed society you need to have better housing. So the older 
style housing, which may be only a few stories, it may be 
earthen, and those are being demolished. People have 
opportunities to move into newer apartments that are on the 
outside of town, so a little bit further away from work, so not 
everybody takes advantage of that. You get some fiscal 
compensation, but not that much.
    In some ways it's analogous to what's gone on in other 
parts of China, in Beijing or other areas, where some older 
kinds of buildings have been demolished and then brought in 
with the new one. What's happening, though, in Kashgar in this 
context, is that the newer buildings are then being populated 
by people who are not from Kashgar, but are maybe from other 
areas, and so it's also connected with a population shift, I 
think. As far as the tourism kind of aspect of it, yes, there's 
certainly a lot of tourists that went to see the old city of 
Kashgar.
    But the concession to get in there, the concession was 
granted to the Xinjiang Production Construction Corps because 
they have a lot of skills in managing things, so you're paying 
the Production Construction Corps ticket entry fee, but it 
doesn't really go to the local neighborhood. So there's an 
issue kind of at the cultural level, and then of course there's 
the economic components.
    Ms. Oldham-Moore. Thanks.
    Shirley, do you want to speak to this?
    Ms. Kan. Well, I just find it interesting, as I mentioned 
earlier, that the Secretary General of the OIC just was allowed 
into Xinjiang last month and he was able to visit Kashgar. So 
one question is whether this policy to demolish the Uyghurs' 
cultural center will still continue, given that the Muslim 
world is watching what happens.
    Second, it's not just a question of demolishing the old 
cultural center in Kashgar. There have been reports that the 
PRC authorities were seeking to demolish the Rebiya Kadeer 
building right in Urumqi, the famous landmark in Urumqi right 
down the road from the two famous international bazaars. What 
would happen to the Uyghur women trying to eke out a living and 
other things around that landmark?
    Ms. Oldham-Moore. What is the Rebiya Kadeer building?
    Ms. Kan. It is a very tall, commercial-looking building 
right in the middle of Urumqi, just down the road from the two 
major international bazaars. There have been questions about 
what would happen to them, possibly in retaliation. A lot of 
women make their living out of that building.
    Ms. Oldham-Moore. Great. Thank you.
    Ms. Richardson. I'll just add on that the stated logic is, 
new modern housing, won't that be nice for everybody, that 
should go a long way toward addressing some of the grievances 
that the local population has. From our perspective, not only 
are there problems like this rampant across China, and there's 
an obvious lack of compensation and consultation--I mean, under 
Chinese law people have the right to say, no, I don't want to 
move, and only be moved if the circumstances are shown, through 
a legal proceeding, to be extraordinary and necessary, which 
obviously we don't think really happens all that often.
    But I think to do this, even if you left out the cultural 
dimension and the fact that the parts of Kashgar that got razed 
have been designated by the World Heritage Organization as 
important monuments, I think it's a pretty potent way for a 
centralized government to say to people, we will remake this 
place the way we want it to be. We do not care what you want, 
we do not care what your history is, we do not care what you 
think, we will make it our way and you will like it or you will 
lump it. I think that's a pretty ill-informed policy, 
particularly in a region that's already as restive as it is.
    Ms. Abramson. Great. We've reached our time limit. I'd like 
to thank all of our panelists for their testimony today, and 
everyone here for coming. We will have a transcript of this 
roundtable on our Web site, www.cecc.gov. We will also have the 
written testimony of Kathleen McLaughlin, the journalist who 
has reported from Xinjiang who was unable to join us here 
today, so please visit our Web site. We look forward to seeing 
you at future events. Thank you. [Applause.]
    [The prepared statement of Ms. McLaughlin appears in the 
appendix.]
    [The joint statement of Senator Dorgan and Representative 
Levin appears in the appendix.]
    [Whereupon, at 3:33 p.m., the roundtable was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


                  Prepared Statement of Stanley Toops

                             july 19, 2010

       Demographics and Development: Xinjiang Work Forum May 2010

    Thank you for the opportunity to present these remarks to you 
today. I am an Associate Professor of Geography and International 
Studies at Miami University. I have been conducting research on 
demographic and development issues in the Xinjiang Uyghur Autonomous 
Region of northwest China for 25 years. My remarks will focus on two 
facets concerning the policies outlined in the May 2010 Xinjiang Work 
Forum in China. The first is to situate the policies of the Xinjiang 
Work Forum within the general trends of China's development efforts in 
Xinjiang. I will discuss how economic development varies in different 
parts of Xinjiang depending on local inputs of agriculture, industry 
and transportation access. I will examine the Xinjiang Work Forum and 
see how the stated goals of the Work Forum will impact the different 
areas of Xinjiang. The second is to examine the demographic components 
of Xinjiang. I will be talking about the distribution of population in 
Xinjiang.  One focus is on the changing ethnic composition of Xinjiang 
in terms of Han, Uyghur, Kazakh and others. Another element to consider 
is migration within the region as well as the Han migration to 
Xinjiang. I will examine recent demographic trends.
    What is now the Xinjiang Uyghur Autonomous Region (XUAR) has been 
labeled a variety of names. This Inner Asian area is composed of the 
Tarim Basin, the Turpan Basin, the Dzungarian Basin, and the Ili 
Valley. This area is known as Eastern Turkistan to distinguish it from 
Western Turkistan, the former Soviet Central Asia. The Xinjiang Uyghur 
Autonomous Region, the largest of China's political units, covers an 
area of 1,650,000 square kilometers, one-sixth of China's total area, 
three times the size of France. Xinjiang now has a population of 21 
million. Located in the northwest of China, Xinjiang is bounded on the 
northeast by Mongolia, on the west by Russia, Kazakhstan, Kyrgyzstan 
and Tajikistan, and on the south by Afghanistan, Pakistan and India. 
Xinjiang's eastern borders front Gansu, Qinghai, and Tibet (Figure 1).
                          economic development
    China started the Western Development Program in 1999 to address 
some of the regional inequities faced by China's western regions in 
comparison to the more developed eastern portions of China. China's 
development programs are addressed to the needs of its various regions. 
The current policies outlined by the Xinjiang Work Forum expand on the 
Western Development Program.
    Developmental change occurs in Xinjiang based on the dynamism of 
the region. Xinjiang is composed as well of different localities that 
vary in character and responses to government policies. The traditional 
economic landscapes of this Silk Road region were herding, oasis 
agriculture, and trade. On top of that the state has added the modern 
including distribution (road, rail, air), as well as production (oil, 
textiles, agri-business) and consumption (urban and rural).
    The state's project of developing Xinjiang restructured the 
economic landscape. Transportation linkages lead to Urumqi and thence 
to Beijing in a hierarchical centralized fashion. Traditional economic 
centers such as Kashgar, Turpan, and Gulja are superseded by Urumqi's 
industries based petrochemical and textiles. Oil found in the north at 
Karamay (black oil in Uyghur) and the current oil exploration in the 
Tarim has added to Xinjiang's economic value to China. Oasis 
agriculture by the Uyghurs and animal herding by the Kazakhs were 
superseded by commercial agriculture on state farms. The state created 
the Xinjiang Production and Construction Corps (XPCC) out of 
demobilized elements of the People's Liberation Army in the 1950s to 
run the state farms. The XPCC still runs these state farms and has 
branched out into industry as well. In terms of consumption, Urumqi has 
been the focus of the economy with people paying high prices, earning 
not so high wages and living in high rises. In rural areas in the south 
farther from the markets, people still live in poverty. Border trade 
was nonexistent in the 1960s, limited in the 1970s, and grew in the 
1980s-1990s.
    China embarked on a ``develop the west'' campaign in 1999. Policies 
in the 1980s focused on developing the eastern coast while the western 
interior should prepare for future development. After the coastal 
development strategy of Deng Xiaoping, the PRC began to turn its 
attention to rural poverty much of which was located in the interior. 
In June 1999, Sec. Jiang Zemin formally opened the western development 
strategy at CCP and government meetings. This policy elaborates on Deng 
Xiaoping's coastal program by turning to regional inequalities in the 
west.
    Reasons for the new ``develop the west'' campaign focus on reducing 
regional inequality. In the 1990s, the interior regions began to be 
discontent with the siphoning off of resources, human and natural, to 
coastal development. Lack of economic growth in the west meant 
underdevelopment--in turn leading to social instabilities.
    For western regions that have areas characterized by poverty and a 
larger percentage of minority population in the ethnic makeup, there is 
a potential for political instability as well as social instability. So 
the basic formula of development leading to stability is one that is 
followed in China.
    Under the Xinjiang Uyghur Autonomous Region (XUAR), the PRC 
commanded a great restructuring of the area. That restructuring 
occurred through many different programs. Their focus has been an 
orientation of Xinjiang to Beijing. Historically, Xinjiang's centers of 
power and activity were in Kashgar, Turpan and Gulja. In modern 
Xinjiang under the PRC, the centralizing force of the state has meant 
that Urumqi has become the dominant center in terms of productions, 
administration, culture, population, and power. For Xinjiang this has 
meant a re-orientation to Beijing and lessening of the status of 
Kashgar, Turpan, and Gulja in a hierarchy of power. This re-orientation 
to China has created a geography of development. The reconstruction of 
the development landscape has meant the distribution of productive 
forces and their concentration in central Xinjiang. As migrants from 
other portions of China move to Xinjiang, a new development landscape 
is created which means further directional shift--toward Beijing.
    Agriculturally, the hallmark of Xinjiang's development has been the 
Production and Construction Corps (XPCC). Large amounts of central 
investments and subsidies were directed to rebuilding the land. At the 
same time central funds and 
demobilized troops contributed to the consolidation of central control. 
Animal husbandry has continued growth but the production policies 
during the collectivization period hindered the pastoralists. Most 
disastrous was the formation of agro-herding complexes that plowed up 
rangelands for grain. Xinjiang has the capacity to be a great meat 
producer for China. Production gains in agriculture must be understood 
in the context of reversals in animal husbandry.
    Production in industry and agriculture as well as the tertiary 
sector inscribes an activity region of Xinjiang and smaller sets of 
regions within Xinjiang. Regions of cultural identification in Xinjiang 
are constituted through relations between and within ethnic groups. The 
region is the medium for social interaction; the relationships that 
link together institutions and people shape that region. Northern 
Xinjiang has most of the industry and commerce. Substantial numbers of 
Han and Uyghur along with Kazakh reside here. The focus of the north is 
found in the industrial municipalities of Urumqi, Karamay, and 
Shihezi--this is the modern day core of Xinjiang's economy populated 
mostly by Han. In contrast Southern Xinjiang is more rural, with an 
agricultural economy. Much of the population in the south is Uyghur, 
Kashgar in the south is mostly Uyghur; however there are more Han in 
the cities now especially in Korla and Aksu.
    As the region modernized most of the industrial advancements took 
place in the core Xinjiang area of Urumqi, Karamay, and Shihezi. The 
economy is focused on this area. Urumqi was connected to the rest of 
China by railroad in the 1960s and by 1990 to Kazakhstan. Urumqi and 
Karamay have the largest values in industrial production. Urumqi is 
well diversified in industrial output including heavy industry, 
petrochemicals and textiles. Karamay's industry derives mostly from oil 
production, besides crude oil and gas production, processing also 
occurs here. Karamay is connected by pipeline to Urumqi. Districts in 
the south, such as Aksu and Kashgar, produce mostly for local use 
(cement, fertilizer, food processing). The railroad was extended to 
Kashgar in 1999. Processing of the Tarim oil adds to the GDP of Korla 
in Bayangol; otherwise industrial GDP in southern Xinjiang is not 
large.
    Karamay leads in per capita GDP, because of its oil processing and 
relatively low population. Urumqi has approximately double the average 
for Xinjiang. Other leaders include Bayangol, Turpan, and Shihezi. The 
low points in this economic landscape are Hotan, Kizilsu and Kashgar, 
all in the south and far from the economic heart of Xinjiang. Urumqi is 
the major economic center. The traditional centers of Kashgar and Ili 
fall short, while the traditional center of Turpan has made a bit of a 
comeback because of oil.
    All in all the impact of oil (Karamay, Urumqi and even Bayangol and 
Turpan) is clear. Refining all of the oil in the XUAR would add to the 
GDP. For the south having more refineries in Bayangol, Aksu or Turpan 
would boost local GDP. Urumqi's refineries take in most of the Tarim 
and Turpan oil. Most of the oil crews are from Northeastern China, for 
example Daqing. Thus the oil migrants add their labor force to the 
local areas.
    What is the nature of the development landscape in Xinjiang? 
Production is up as is GDP per capita. However these two measures show 
only part of the picture. Much of the rise in GDP is due to the 
processing extractive products; there is an over reliance on oil to 
describe a rosy scenario. Much of labor force is still in the 
agricultural sector. Many basic needs have been met. The difficulty 
comes with seeing the regional differentiation. There is an 
underdeveloped south compared with developed north. The historical 
economic centers of Turpan, Kashgar and Gulja have been superseded by 
the new modernized economic centers of Urumqi, Shihezi, Karamay, and 
Korla.
    To develop southern Xinjiang along the lines of northern Xinjiang 
would require significant amounts of capital investment. The ``develop 
the west'' campaign would seem on the surface to bring new investment 
to Xinjiang, but most of those capital and labor flows will be directed 
to northern rather than southern Xinjiang.
    The new policies outlined by the Xinjiang Work Forum have a more 
detailed plan for Xinjiang's development prospects. Representatives 
from the various coastal provinces met with counterparts in Xinjiang 
earlier this year before the Work Forum to start the planning for these 
projects. One key aspect is the regional component. Attention is paid 
to southern Xinjiang. There is also an interesting pairing up of 
provinces on the east coast with the prefectures of Xinjiang.

Beijing Municipality--No.14 Division (XPCC), Hotan Prefecture--7.26 
billion yuan ($1.06 billion) over the next five years for housing and 
protected agriculture
Guangdong Province--Tumushuke City of the XPCC's No.3 Division, Kashgar 
Prefecture--9.6 billion yuan ($1.41 billion) over the next five years 
for infrastructure construction and public services
Shenzhen--Kashgar City and Taxkorgan County--supply of financing, 
technologies, talent and management expertise
Jiangsu Province--No.4 Division and No.7 Division of the XPCC, Yili 
Kazakh Autonomous Prefecture, Kizilsu Kirgiz Autonomous Prefecture--
people's livelihoods, education, vocational training and oil pipeline 
projects
Shanghai Municipality--Kashgar Prefecture--earthquake-resistant housing 
projects, vocational training and agriculture facilities
Shandong Province--Kashgar Prefecture--earthquake-resistant housing 
projects and safe drinking water projects
Zhejiang Province--Ala'er City of the No.1 Division of the XPCC, Aksu 
Prefecture--a total investment of 16.7 billion yuan ($2.45 billion) 
over the next 10 years in industries, modern agriculture and social 
welfare
Liaoning Province--Tacheng Prefecture--180 million yuan ($26.36 
million) as disaster relief for residents affected by the blizzard in 
2009, job training and modern agriculture
Henan Province--Hami Prefecture and No.13 Division of the XPCC--
orchards, protected agriculture and reconstruction of dilapidated 
houses
Hebei Province--No.2 Division of the XPCC and Bayingolin Mongol 
Autonomous Prefecture--an investment 1.8 billion yuan ($263.62 million) 
in agricultural technologies, housing, employment and education over 
the next five years
Shanxi Province--Wujiaqu City of the XPCC's No.6 Division, Changji Hui 
Autonomous Prefecture--coal mining, education and reconstruction in 
shanty areas
Fujian Province--Changji Hui Autonomous Prefecture--investments in the 
textile industry, social welfare and rural infrastructureHunan 
Province--Turpan Prefecture--affordable housing programs and coal 
mining
Hubei Province--Bortala Mongol Autonomous Prefecture and No.5 Division 
of the XPCC--protected agriculture, tourism and educationAnhui 
Province--Hotan Prefecture--an investment of 1.3 billion yuan ($190.4 
million) over the next five years in protected agriculture and modern 
industries
Tianjin Municipality--Hotan Prefecture--fruit processing and 
construction of railways and roads
Heilongjiang Province--No.10 Division of the XPCC and Altay 
Prefecture--mining, education and job training
Jiangxi Province--Kizilsu Kirgiz Autonomous Prefecture--an investment 
of 2.07 billion yuan ($303.16 million) in infrastructure, education and 
people's livelihoods
Jilin Province--Altay Prefecture--flood prevention projects and 
people's livelihoods

        (Hu Yue, ``Hand in Hand,'' Beijing Review June 7, 2010, No. 23 
        http://www.bjreview.com.cn/business/txt/2010-06/07/)

    Southern Xinjiang then will have connections with Beijing, 
Guangdong, Shenzhen, Shanghai, Shandong, Zhejiang, Anhui, and Tianjin. 
This direct pairing may be useful, yet there are some problems. Take 
for example Kashgar's pairing with Shenzhen. Shenzhen is a special 
economic zone administered separately from Guangdong province, Shenzhen 
has special economic rules compared with the rest of Guangdong. 
Shenzhen specializes in the factories for the global export market. 
Shenzhen is to supply financing, technologies, talent and management 
expertise. While the financing of projects in Kashgar may be useful, 
talent and technology will not go very far in Kashgar. Shenzhen's 
economic success has depended on its neighbor Hong Kong for investment 
and expertise. Kashgar's nearest neighbors are Pakistan and Kyrgyzstan 
in contrast. There is of course an overseas community of people from 
Xinjiang that is Uyghur and Han in other countries. Perhaps their 
expertise and skills could be tapped into. This artificial pairing of 
East Coast--Xinjiang partners would need to go beyond sister city 
pairing to be beneficial.
    Another interesting part of the plan is that Divisions of the XPCC 
are also partners. This reflects the economic reality of the Xinjiang--
the XPCC forms a major part of Xinjiang's economy. It functions as a 
separate company. The Xinjiang Production Construction Corps XPCC 
(Shengchan Jianshe Bingtuan) was established in 1954. The Corps as the 
other state farm systems was dissolved after the Cultural Revolution in 
1975 but was reinstated by 1981. The Corps is still organized along 
military lines; indeed, the Chinese name Bingtuan identifies the XPCC 
as an Army Corps. The XPCC has developed a vast state farm system as 
well as factories, hotels, and whole cities. The Corps utilizes migrant 
Han labor as well as prison labor. The Corps receives substantial 
support from the state and has been a major element of state control in 
Xinjiang. In the 50 years of the Corps' existence, it has become a twin 
to the Xinjiang Uyghur Autonomous Region government, both twins cast 
large shadows. Fifty years have past but the Corps numbers 2.5 million 
members, making it the largest state organization after the People's 
Liberation Army in China. So the plan provides for east coast provinces 
to support a Centrally administered entity--the XPCC.
    The types of programs are also of interest. Much of the projects 
are for material infrastructure. These include housing, agriculture, 
pipelines, mining, fruit processing, textiles, and modern industries. 
There are some projects on education and ``people's livelihood'' which 
deal more with the human infrastructure. Investment in human 
infrastructure will have a more beneficial impact than more road 
construction in the region. The coordination of all these projects will 
be quite difficult particularly since the experts form the east coast 
may not be very familiar with local conditions in Xinjiang.
    One of the focuses should be on education and literacy for southern 
Xinjiang. Investment in human as well as natural resources is a key to 
sustained development. Education though needs to be followed by 
employment. Education without employment is a short ticket to 
disastrous development. Another issue is that of language. Would 
Xinjiang be able to follow a path of bilingualism? Can a Uyghur get 
ahead in society without also being fluent in Chinese? Can a Han get 
ahead in society without being fluent in Uyghur? Given the current 
answers to these questions (probably no and definitely yes) the 
language of instruction is critical for Xinjiang. The universities in 
Xinjiang have moved from a bilingual (Chinese and Uyghur) to a 
monolingual system (only Chinese). This changed has continued in the 
Xinjiang educational system with ramifications on down through primary 
school.
                         demographic landscape
    The demographic landscape of Xinjiang has undergone changes as 
well. There has been an influx of Han migrants thus changing the ethnic 
composition of the region. The migrations were regionally selective as 
well thus changing the distribution of population. Xinjiang ethnic 
diversity forms a basis for regionalization. With a variety of ethnic 
groups living in the area, all of their experiences and traditions can 
be brought to bear on any issue. An understanding of the distribution 
of the ethnic groups provides clues to the cultural landscape of the 
area.
    Of the 30 different ethnic groups in Xinjiang, 13 have made 
Xinjiang their home. The 13 are Uyghur, Kazakh, Kyrgyz, Uzbek, Tatar, 
Xibo, Manchu, Mongol, Daur, Han, Hui, Tajik, and Russian. They 
represent different language groups, religions, and customs. Within 
Xinjiang's 2008 population of 21.3 million, Uyghur account for 46 
percent, Han 39 percent, Kazakh 7 percent, and the rest 8 percent. 
Within the cities one may see a great variety of ethnic groups, but 
most of the minority groups live on the periphery. A definite Central 
Asian component is the population base in the region, particularly 
outside of the capital Urumqi.
    Han migration has filled in many corners of Xinjiang. Much of the 
migration has focused on the major lines of transport, Urumqi south to 
Korla, Urumqi west to Shihezi. Kashgar and Gulja have maintained their 
general ethnic composition. The central portion of Xinjiang has 
continued to grow with Han migration. In the future, though, Xinjiang 
sees a problem with water supply, especially in Urumqi. Xinjiang is 
large but not all of its land can be settled.
    When considering the level of development, one also needs to 
consider the ethnic composition of the population. Xinjiang is about 40 
percent Han. There are higher percentages of Han in the northern 
corridor in Urumqi, Shihezi and Karamay. The south is mostly Uyghur in 
contrast. An interesting observation, though, is the relative increase 
in the Han population in the south. Kizilsu, Kashgar and Aksu have the 
most relative change in the numbers of Han. Much of this new population 
is urban, so the effect is even stronger in Kashgar City, Artush City 
and Aksu City. Modern population settlement and migration patterns have 
followed the railway. This increase in Han population is probably due 
to the new railway extended to Kashgar in 1999.
    Han populations match up well with urban and transportation 
linkages, roads and railroads; migrants tend to follow transportation 
lines. Xinjiang has distinctive nationality concentrations. The cities 
as well have distinctive ethnic neighborhoods, for example, Uyghur in 
Urumqi, or Hui in Turpan. Uyghurs live in the south, which is the 
poorest area. Han live in the wealthier urban corridor of the north.
    The 2000 census like the 1990 included questions on migration 
Respondents were asked if they were registered in other localities. In 
Xinjiang, over 1.4 million people (7.64 percent) indicated they were 
registered elsewhere; I assume most of these were Han or Hui, most 
likely not Turkic minorities. Not all migration data from the census 
has been released. The registrants came from all over China, primarily 
from the Southwest, North, and Northwest. Major sources for the 
registrants are Sichuan, Henan, and Gansu. The Sichuan migrants (over 
400,000) are well known in Xinjiang, witness the large number of 
Sichuan restaurants. Sichuanese have been coming to Xinjiang since the 
1950s. There are many registrants who have come to Xinjiang from the 
Three Gorges area. The Henan people coming to Xinjiang are Yellow River 
people. There are many ties from the north China Plain to Xinjiang 
going back to the 1950s. The Gansu people are true north westerners who 
have moved along the Hexi corridor into Xinjiang. These migrants are 
working in industry and agriculture, in oil and in cotton, in 
households and in government, as cadres and as maids. Like any 
immigrant group they are seeking a better life, in this case primarily 
economic life. Xinjiang is a very different place from Sichuan or 
Henan, not so different from Gansu. Migrants are aided and recruited. 
There are centers in Urumqi, Korla and other major cities to facilitate 
the flow of the migrants for jobs and housing. Or recruiters, whose 
original home is in Sichuan, go back to Sichuan to bring labor to 
Urumqi. Since there is a surplus of labor in Sichuan, since the people 
speak the same dialect, since jobs are scarce in Sichuan and the 
population is large, why not go to Xinjiang for a time to make some 
money?
    What is the nature of the demographic landscape in Xinjiang? The 
population is concentrated in two segments, Northern Xinjiang and 
Southern Xinjiang. In both cases the roads and now railroads linking 
the settlements have proved to be the major paths for migration. The 
population has a male/female ratio comparable with the rest of China, 
the Uyghur have a lower male/female ratio than the Han. Xinjiang's age 
profile is younger than other parts of China; southern Xinjiang is 
particularly young. In terms of nationality (minzu /millet) the Uyghur 
are still in the south and the Kazakh are in the north. The Han are 
migrating in a steady stream into the central area and following paths 
of migration to the other urban centers. Major sources of migrants are 
from Sichuan, Henan, and Gansu.
    What direction does this young, ethnically diverse population with 
large numbers of migrants take? If the border were open to cross border 
migration, some Kazakhs might move to Kazakhstan or Uyghurs to Central 
Asia. But there is no Uyghur land across the border. Indeed if the 
border were open there might well be many Han in Kazakhstan and Central 
Asia rather than the few who are there now. South to Pakistan, north to 
Russia and Mongolia does not seem readily possible, although the local 
connections to these neighboring countries are strong. Given economic 
tendencies Han migrants are looking not to Xinjiang but to Shanghai, 
Hong Kong, Beijing, and further afield to US, Canada, Australia or 
Europe. 50-60 million Han live outside of the country as huaqiao 
overseas Chinese.
    Looking across the border to Kazakhstan, one sees a similar 
situation a young ethnic diverse population, with a large number of 
migrants from Russia rather than China. Of course, since 1990 the 
political situation is now quite different.
    Xinjiang's demographics show a population that is getting older 
little by little and more urban. The demographic trends also show a 
population that is becoming less ethnically diverse with more migrants. 
That is the future of Xinjiang's demography.
    Xinjiang has certainly prospered materially. I first studied in 
Urumqi in 1985; since then cell phones, cable TV, computers, and 20-
story buildings are commonplace. There has been a technological growth. 
Transportation improvements air, rail, and highways connect the region 
together, focusing on Urumqi. Now all taxicabs in Urumqi have Global 
Positioning Systems.
    Han hold many of the technological and jobs in Xinjiang. A higher 
percentage of Uyghurs have advanced education than in the past, but to 
get a good job is not so easy in Xinjiang, to do so one needs 
connections or guanxi. Tapping onto the network of connections one 
relies on government, university, family, kith and kin. Connections for 
Han are more forthcoming than for Uyghur. Of course a well-connected 
highly educated Uyghur has more chance than a poor Han peasant from 
Hunan. A well-qualified individual has a better chance among his or her 
own ethnic group. Ham migrants have contributed greatly to the economic 
development of the region but not necessarily to the local inhabitants 
of Xinjiang. Those who have worked in technical fields training local 
Uyghur and Kazakh population have also contributed to the social 
development of the region and its inhabitants.
    The plans for development in Xinjiang place a great deal of 
emphasis on physical infrastructure (roads and railways). For example, 
World Bank loans were previously used for improving the highway between 
Urumqi and Turpan, between Kuitun and Sayram Lake. In contrast the 
Tarim Basin Project is aimed at poor farmers in the south. China also 
has a World Bank Project aimed at education among indigenous peoples in 
Sichuan, Yunnan and Guizhou. This is a good example of a project that 
could be adapted to southern Xinjiang.
    The new policies outlined by the Xinjiang Work Forum will also have 
a considerable impact on the local demography. Often times with work 
projects in China, the skilled workers move into the areas. So many of 
the jobs in the new infrastructure projects would go to people with 
experience in those fields. This would entail more people migrating 
from eastern China to Xinjiang. And since the projects would go deep 
into southern Xinjiang, there will be more migration of Han into the 
traditionally Uyghur populated areas of southern Xinjiang. Usually the 
supervisors and foremen at job sites would be Han and prefer have a 
work force that operates in the Chinese language. So it is more 
difficult for a Uyghur to get hired in this formal sector of the 
economy. This Xinjiang development program could lead into an east-west 
population transfer across China.
    The resultant impact of the development program on the demographic 
character of Xinjiang lies in two areas: the combination of ethnicity 
and migration. The development program will entail a movement of 
population from the east. Prior migrations from the east have been 
directly organized by the center. The major migration of Han into the 
region occurred during the 1950s. Many soldiers as well as peasants and 
urban dwellers settled in the region. In some cases, demobilized 
soldiers formed the new Production and Construction Corps. Oftentimes 
this settlement extended into land that was used for pastureland, 
converting it to agricultural purposes. Or new patches of ``desert'' 
were converted by tapping into the local aquifer (such land could only 
be used for a few years before nature would reclaim it). Many from as 
far as Shanghai came, as well as Sichuan and Hunan, in addition to the 
traditional flow of migrants from Gansu and Shaanxi. Migration slowed 
in the 1970s as the political situation stabilized.
    In the 1990s a new element began to appear--the floating 
population. China has about 100 million people that can be classified 
as floating population. We do not know how many there are in Xinjiang. 
These could also be described as temporary or circular migrants, in 
that they do not move permanently but could constitute an extra 10 
percent of any urban population. In Urumqi, the temporary migrants can 
be seen at the train station, emerging from the 3-4 day journey. There 
is a large enclave of the temporary migrants living near the train 
station. Downtown, there is an office for the temporary residents where 
they can line up jobs and get housing. A stroll by this area and a 
discussion with the migrants shows that many of them are looking for 
construction or other skilled labor jobs. The better skilled can 
command 2000 yuan per month. Similar facilities are available in Korla 
and Aksu. So there is a provision for the temporary migrants even 
though a permanent move may not be in the future for them. Many would 
only plan to stay a while to try their luck in the city. This new 
development program would bring more formal migrants as well as 
floating population into Xinjiang. Most of the migrants had been 
heading toward the central areas of Urumqi and Shihezi. Now there will 
be more migrants headed toward Kashgar and southern Xinjiang. The vast 
majority of these migrants will be Han. Thus the cultural character of 
southern Xinjiang will change from one predominantly Uyghur to one with 
a larger Han component.
    Finally, what are the prospects for population growth? Population 
growth continues in Xinjiang, as does the migration to the region from 
other parts of China. If anything, the migration seems to be increasing 
in recent years, particularly with the addition of the floating 
population. This migration will ensure a larger percentage of Han in 
the region. The focus for the Han population will continue to be 
northern and central Xinjiang around Urumqi. With the completion of the 
railway to Kashgar, migration flows into southern Xinjiang will 
continue. Already the Han proportion of the population in southern 
Xinjiang has begun to increase. The only real limit to population 
growth in the region is access to water not access to land. The state 
has decided to tap into local aquifers and is using that water for 
agricultural expansion, oil production, construction and industry and 
residential use. In the oases of southern Xinjiang, overexploitation of 
water points to a serious ecological disaster in the making.
                       Submissions for the Record

                              ----------                              


 Prepared Statement of Kathleen E. McLaughlin, China Correspondent for 
                  BNA, Inc., and Freelance Journalist

                             july 19, 2010
    Good afternoon, ladies and gentlemen, and thanks very much to the 
CECC for 
inviting me to take part in this important discussion. As a journalist 
and not a scholar, I'd like to focus primarily on the difficulties 
journalists face in reporting on Xinjiang, and how the strict barriers 
to reporting on the region have left the international media with a 
general lack of facts and understanding about what is happening there.
    When deadly riots erupted in Urumqi last summer, foreign 
correspondents in China expected the same kind of scenario we had 
encountered the year earlier when violent riots hit Tibet. Most of us 
believed that Xinjiang would be blocked off to reporters and the 
outward flow of information tightly controlled.
    So it was a pleasant surprise to find that the capital of Xinjiang 
was relatively open to foreign correspondents. Though Chinese media 
were not allowed free access to the region, foreign reporters flocked 
to Urumqi, where dozens of them found they had relatively open access 
to the city.
    There were some problems, some hassles with police (including one 
incident in which reporters were beaten up), but given the violent and 
potentially dangerous situation, reporting conditions in Urumqi were 
far less difficult or complicated than most had expected. I personally 
did not go to Urumqi but was told by several colleagues who did that 
they moved about with relative ease, and that a government-established 
press center with a dedicated Internet line was quite helpful in their 
work. The region's Internet was shut down, so journalists were 
scrambling to file stories and communicate.
    A few months after the riots, Chinese officials acknowledged that 
they had made a deliberate, top-level decision to open the Xinjiang 
capital to foreign journalists, saying that they believed it was in 
China's best interest to let open reporting prevail and allow the facts 
to come out. In many cases, the facts did emerge from Urumqi. Foreign 
journalists were able to talk with both Han Chinese and Uighurs who 
were involved in the riots, and detailed accounts emerged from Urumqi.
    But the entirety of Xinjiang was far from transparent. Kashgar, the 
political and cultural heart of Xinjiang, was largely shut off to 
foreign journalists and remains so to this day. Reporters have been 
turned away at the airport upon landing in Kashgar, followed and warned 
by police and ordered to leave the city. In my own case, I travelled to 
Kashgar at the end of last year and managed to escape police notice for 
nearly a week. That ended on my last night in town, however, when I had 
to check into a hotel on my own passport, which contains a journalist 
visa. The manager did what is required in all of China and notified 
police that a foreign journalist had checked into his hotel. Within 30 
minutes, five officers were knocking on my door, demanding to know why 
I was in Kashgar and when I would be leaving. One officer took my 
passport and checked me in for the first departing flight back to 
Urumqi.
    And even though was able to stay in Kashgar for several days before 
being noticed, reporting was extremely difficult because locals did not 
want to be interviewed. I was told there were clear directives that 
residents should not be speaking with foreign journalists and that all 
local tour guides had been issued guidelines to report journalists to 
the local police. This has been borne out by the experience of other 
journalists who have tried to work in Kashgar over the past year. It's 
a marked turnabout from conditions before the riots, when Kashgar was 
relatively open to reporters and locals talks with journalists without 
extreme fear of reprisals. That's no longer the case.
    As a result, the flow of information from Kashgar and other parts 
of Xinjiang has been barely a trickle. This should perhaps not be a 
surprise. After all, the root of the riots likely started in Kashgar, 
though we still don't know exactly what or how things transpired.
    The initial spark for the riots was ignited at a toy factory in 
Guangdong Province in late June, when what has been described as either 
a fight or an attack left at least two Uighurs dead at the hands of Han 
Chinese coworkers. After several days and no arrests in the Shaoguan 
toy factory murders, it seems that Uighurs began organizing protests 
which later escalated into the July 5 riots in Urumqi.
    As I mentioned earlier, I didn't go to Urumqi during the riots or 
their immediate aftermath. Instead, I travelled to Shaoguan to try to 
find out what had happened at the toy factory. What I found was that 
hundreds of Uighur workers (most from Shufu, a suburb of Kashgar) who 
many say had been pressured to moved to Guangzhou under the governments 
outward migration push, were sequestered off from the rest of the 
factory, the bosses said for their own safety. Residents, businesses 
owners and factory workers around the giant toy factory had been told 
not to speak to journalists, but many did. Still, despite the chatter, 
what emerged was a picture as clear as mud. There was a clear 
atmosphere of ethnic tension between Uighurs and Han Chinese in the 
factory town in the aftermath of the murders, but it was far less clear 
what tensions led to the incident. Wide disagreement remains to this 
day over what sparked the brawl and how many people were killed.
    Uighurs I spoke with in a nearby factory town said they were forced 
through economic pressures to leave Kashgar and work in Guangdong. They 
said their friends in Shaoguan were under tight controls and directed 
not to speak of the incident. They had very real concerns for their 
safety and that of their families.
    To this day, essential facts remain unknown about what happened 
last summer, and what caused Urumqi to devolve into China's deadliest 
ethnic riots in decades. What led to the riots, how they were 
organized, and what happened to those involved are all questions that 
have not been satisfactorily answered. China has earned credited for 
allowing free flow of information during the Xinjiang riots, but the 
flow was not free enough to answer imperative questions.
    In a recent survey of our correspondent members, the Foreign 
Correspondents' Club of China found that most journalists who responded 
believe government restrictions make it impossible to do balanced and 
accurate reporting on Xinjiang. Travel restrictions and intensive 
pressure on sources are major barriers. Even though Xinjiang is 
ostensibly open to foreign journalists, correspondents liken it to 
Tibet--the only part of China where journalists are still required to 
get prior government permission to visit. Correspondents reported being 
harassed and monitored while working in Xinjiang in recent years, 
particularly in Kashgar and other non-Urumqi locations during and after 
the riots. The pressure seems to have ramped up even higher around the 
one-year anniversary of the riots earlier this month.
    Reported one correspondent who travelled to Xinjiang last year: 
``We were followed and forced to leave Kashgar by the police. Some 
people were too scared to talk to us.''
    Too often in Xinjiang, this seems to be the case. Sources face very 
real repercussions for speaking to journalists, which has become an 
effective tool for containing information. Without the ability to 
investigate the facts or talk to people who live there, we may never 
know the real story of the Xinjiang riots and so many other things 
about life and politics there.
    Thanks very much for your attention and I look forward to the 
discussion.
                                 ______
                                 

  Statement of the Chairman and Cochairman: Xinjiang--One Year After 
                       Demonstrations and Rioting

                              july 9, 2010
    We are deeply concerned by human rights conditions in Xinjiang, one 
year after demonstrations and rioting in the region. Events that 
started on July 5, 2009 resulted in injury and death to Han and Uyghur 
citizens alike. Repressive policies in the region have continued, and, 
in some cases, have intensified.
    In the aftermath of last year's violence, the government tightly 
restricted the free flow of information, and curbed Internet access for 
10 months. Authorities intensified security campaigns and conducted 
large scale sweeps and raids. Security forces detained some Uyghurs, 
primarily men and boys, whose whereabouts still remain unknown. We are 
alarmed by reports that trials have been marred by violations of 
Chinese law and international standards for due process.
    We are concerned by reported curbs on independent legal defense and 
a general lack of transparency in trials. Conditions in the region 
today remain tense. The Internet is back up, but a number of Uyghur Web 
sites remain shuttered. And throughout the last year, the government 
issued regulations to restrict free speech. As we noted immediately 
after last year's tragic events, we urge the Chinese government, when 
addressing events in Xinjiang, to abide by its domestic and 
international commitments to protect citizen's fundamental rights and 
to promote the rule of law, and we urge the Chinese government to 
address the longstanding grievances of the Uyghur people, especially 
those related to official suppression of Uyghurs' independent 
expressions of ethnic, cultural, and religious identity.

                                 <all>

</pre></body></html>
